m
m

CD

'0

ORIGINAL

8263

FILED
WA1M-7 2021
In the
Supreme Court of tlje fHtuteb States
HELGA SUAREZ CLARK
Petitioner
v.
PERU REPUBLIC et al.(Car!os CASTELLON CUEVA,Arturo QUISPE CACERES,Rory LAZO
BUSTAMANTE,
Emilio
LIAS
CUERVO,Gamero
ALVAREZ
BASAURI.R. CHU QUIHUAYTA
QUILLAHUAMAN,police under Jhon BECERRA DIAZ,Wilder PEDROZA RUIZ,
TELLO
YLLA,Minoho, CALLANAUPA PEREZ,Hugo
MINAYA
Julio
Cesar
CHIRINOS,PEREZ GARCIA,ALVAREZ GARCI,Julio ARCE DE LA TORRE
BUENO,Lisbeth AFAN QUISPE,Luis RAMIREZ ARCAYA,Javier Freddy ALVAREZ,other
police see reports exhibits,Maria Del Carmen VEREAU ALVAREZ,Nilo PARAVICINO
ALARCON,Gisela VENERO DE MONTEAGUDO,Walter BECERRA HUANACO,Victor
FARFAN MERCADO,Miguel A.CASTELO ANDIA,Ignacio ORTEGA MATEO,Julio
CesarALVARADO VILLENA,Rodolfo HUAMAN FLORES and Etel MARQUINA
RODRIGUEZ,Felix TUPAYACHI PACHECO,Nelly CALDERON NAVARRO,Miguel
A.CACERES CHAVEZ, Carlos A.PEREZ CHAVEZ, Julio C. VILLENA ALVARADO,Magaly
ROJAS ESPINOZA,Jose M.MAYORGA ZARATE,Tamara T.CATACORA JARA , Alberto
PEREZ CARDENAS,Gary J.ORTIZ AGUILAR,Luis PAREDES CUSI,Nataly UGARTE
MOLINA,Gladys
QUISPE,Evelyne
M.MAURICIO
APARICIO,F.ALMANZA
ALTAMIRANO,Elisabeth ORTIZ DE ORUE RODRIGUEZ LADRON DE GUEVARA,Lucy
CHAUPIS VALVERDE,Maria T. YNONAN VILLANUEVA and Maria SUAREZ
ARIAS,judge NINO DE GUZMAN,Jose ROCA MENDOZA, all District and national
attorneys) in caselaw reports (exh.),judges names in reports(exh. ,Mariangeles ROMERO
GUEVARA,Graciela ROMERO) QUISPE,Jorge CHACON MENDOZA,Richard ALARCON)
URRUTIA,Rocio ZEVALLOS HUAYHUA)
Gisela VARGAS CAJAHUANCA,Doris Luz BLAS RAMIREZ,Milagros ANDERSON,
Calixto COANQUI QUISPE,ALMENARA BRYSON,HUAMANI LLAMAS,ESTRELLA
CAMA,CALDERON CASTILLO,CALDERON PUERTAS,Peru Supreme Civil court,Cesar
ARROYO,GONZALES
OJEDA,BARDELLI,LARTIRIGOYEN,ALVA
LANDA
ORLANDINI,GARCIA
TOMA,BLUME)
FORTINI,LEDESMA NUNEZ,ESPINOSA
SALDANA
BARRERA,FernandoCALLE
HAYEN,BEAUMONT CALLIRGOS,ETO
CRUZ,Ernesto
ALVAREZ,MIRANDA,MIRANDA
CANALES,SARDON
DE
TABOADA,CarlosMESSIA) RAMIREZ,Juan VERGARA GOTELLI,Peru constitutional
tribunal,All defendants covered up by Republic Justice in reports complaints,All do
Embajador Hugo DE ZELA MARTINEZ)
Embassy of Peru,1700Massachusetts Ave NW

)

WashingtonDC20036-1903,tel(202)8339860,8339869

)

DiaitaldiDlomacv@embassvofDeru.us.hd8zela@rree.aob.pe)
Jens
MODVIG,Sebastien
MOSOTI,Carmen RUEDA

TOUZE,Carla

EDELENBOS,Dominique

BUSH,Karen
-1-

)

C/0 UN,CAT,OHCHR,palais Wilson
52,rue des Paquis,1201 Geneve Switzerland)
Tel 041 588 78 56.cat@ohchr.org

)

Marta TAVARES,Victor MADRIGAL,Christina CERNA,Ernesto ALVAREZ
Inter-American
Commission
OrganizationofAmericanStates
1889 F St NW .Washington, D.C., 20006

on

Human
)

Telephone- 1 (202) 370 9000, E-mail- cidhoea@oas.org

}

M.P.DILLON,Karen MOSOTI
InternationalCriminalCourt,POBOX195i9)
250oCM,TheHague)
TheNetherIands,otp.informationdesk(S>ice-cpi.int)
+31(0)705158071

Respondents

On Petition for Writ a Certiorari to
The United States Court of Appeals for
The District of Columbia

PETITION FOR A WRIT OF CERTIORARI

HELGA G. SUAREZ CLARK
c/o Avda los Incas 712-A
Wanchaq-Cusco-PERU
suarezhel»a@valioo.com. tel 01151992658883

April 7 2021

-2-

Rights)
)

QUESTIONS PRESENTED
l.USCA(case 20-7119) erroneously denied court appointed counsel aledging case did
not have merits but chief judge Colleen Me Mahon NYSD court(case 18-01740) judged
it had merits and transferred it to DC june 13 2018.Since then my complaints keep
getting dismissed because of mere formalities and presentation instead of merits so
obviously I do need court appointed counsel.
2.USCA did not correct the errors of DC district judge K.Brown J.,without considering
the text of the complaint I indicated had filed 2 days before the last day of main
claim(tentative of extrajudicial killing personal injuries,torture)accrued on february 28
2008,so that if i refile a new case as she asks,the statute of limitation will be barred and
amounts to a dismissal with prejudice.So USCA should have ordered admitting my
complaint because of res judicata.
3.Errors of district judge DC Brown(case 20cv3111): affirming that the complaint”is 133
pp long so neither short nor plain” has no value because FRCP art 8 and others doesn’t set a
limit on length of the complaint ,only it must include “a short and plain statement of the
claim showing that the pleader is entitled to relief, “which it did,despite the court of appeals
claims that not for which reason I include a copy of the whole complaint for You to see for
Yourself.This was overlooked by USCA,ordering ” that the district court's order filed
November 20 2020 be affirmed.The district court correctly concluded .. .”,as USCA
overlooks the arguments in my appeal because on page 6 of my brief,I had mentioned that
on p.95 of my pleading there was a chapter “short and plain statement of claims”,and that
on p. 125 of my pleading there was a chapter”Plaintiff claim for relief’; on p.6 of my brief I
demonstrated this and that’’A 25 PP.AMENDED COMPLAINT,AS RESUME,MAY BE
FOUND ON DOCKET DC CIRCUIT 18 1460,FILING 12 17 2018)violating res judicata
(collateral estoppel)in june 13 2018 transfer order from C.Mc Mahon chief
judge(l 8cv01740) that already admitted it on merits.
4.USCA did not correct District judge BROWN aledging wrongly on p.2 of attached
memo November 30 2020”Plaintiff is a resident of Peru, who has sued the Republic of
Peru and Peruvian officials for sweeping misconduct.”which is a banalization of the
case,that is a complaint,as of civil cover sheet, for nature of suit Personal injuries from
terrorism and torture resting on the Antiterrorism Act and Torture Victim Protection Act.

-3-

TABLE OF CONTENTS

QUESTIONS PRESENTED

3

INTRODUCTION

4-

JURISDICTION
CONSTITUTIONAL,STATUTORY PROVISIONS INVOLVED

4,5
5,6

STATEMENT OF THE CASE

7

REASONS FOR GRANTING THE WRIT

7,8

CONCLUSION

8

INDEX TO APPENDICES
APPENDIX A:Decision of USCA for DC Circuit:
-Opinion of the USCA for DC circuit in H.Suarez Clark v. Peru Republic
et al.,No 20-7119(March 3 2021)
rsJ^e^TMj aj\&

,
,
r
On h^C C^AaW$

APPENDIX B: Decisions of district courts:
-Memorandum Opinion of the US District court for the DC
in H.Suarez Clark v.Peru Republic et al.No 20-3111 (November 30 2020)
-Order of the US district Court for DC No 20-311 l(Nov 30 2020)
-Order,US District NYSD,H.Suarez Clark v. Peru Republic et al.
No 18-01740(june 13 2018)
/VfpCA/Dl^ c, ' Cofij & ^
INTRODUCTION
Helga Suarez Clark respectfully petitions for a writ of certiorari to reverse the
judgment of the United States Court of Appeals for District of Columbia in this case.
JURISDICTION
The date on which the United States Court of Appeals decided my case was
-4-

‘ /**

march 3 2021.Petitions for rehearing and rehearing en bancto vacate district order were
denied April 13 2021 (see appendix)and I moved to stay mandate within 7 days. The
jurisdiction of this court is rule 10 a) of this court;28 U.S.C. s.1254 al.(l).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1

Nullum crimen sine lege:this case has been dismissed despite it proves torture

and terrorism, thus granting impunity (Antiterrorism and effective death penalty
act)despite

exception

to

immunity,Foreign

Sovereign

Immunities.

Act

28

U.A.C.s. 1605A (hereinafter’TSIA”).
2 2 Rule 10 al. 1 lit a)of this Court.
3

The lower courts have abused their discretion and due process of the 14th

amendment, overlooked and misapprehended (FRAP 40)all the points of law I raised in
my appeal, The court has so far departed from the accepted and usual course of judicial
proceedings as to call for an exercise of this Court’s supervisory power: and the
following situations exist: -l.a material factual or legal matter was overlooked in the
decision: in the decision,third paragraph of judgment,it holds” Appellant’s complaint
failed to set forth “a short and plain statement” of the claims showing she is entitled to
relief. Fed. R. Civ. P. 8(a):nevertheless, on page 6 of my brief,I had mentioned that on
p.95 of my pleading there was a chapter “short and plain statement of claims”,and that on
p.125 of my pleading there was a chapter”Plaintiff claim for relief’; on p.6 of my brief I
demonstrated this and thaf’A 25 PP.AMENDED COMPLAINT,AS RESUME,MAY BE
FOUND ON DOCKET DC CIRCUIT 18 1460,FILING 12 17
4

Res judicata:for wrongful tentative of extrajudicial killing,torture,

-5-

extreme mental anguish ,suffering , personal injury,hostage taking ,economic
loss,and taking of property in violation of international law and related torts
deprivation of rights under color of law,denial of due process and equal protection
of the law:this section holds 2)Claim heard:The court shall hear a claim under this
section if (A)(i)(l)the foreign state was designated as a state sponsor of terrorism or
was so designated as a result of such act,(ii)see in Roeder v.islamic Republic of Iran
195

F.Supp.2dl40,159-161

DDC2002.2

TVPA

(Torture victim protection

act),tort(440 civil rights abuses,360 other personal injury)arbitrary detention
,reckless endangerment,deprivation of rights under color of law,slander,conspiracy;
4 The lower courts have abused their discretion and due process of the 14th
amendment, overlooked and misapprehended (FRAP 40)all the points of law I
raised in my appeal;the opinion is in conflict with this court and the conflict is not
addressed in the opinion: by attached order USCA march 3 2021, court stated
5 Erroneously I was denied court appointed counsel because my case does nothave
likelihood of success on its merits:if my case didnt have merits,Chief Judge Colleen
Me Mahon in 18-1740 NYSD would not have admitted it and transferred it; I would
benefit of counsel,since it is not first time I am rejected because of a formality as I
am not attorney. Us supreme court as well opinated in 464 U.S. 154 (104 S.Ct. 568,
78 L.Ed.2d 37 UNITED STATES, Petitioner v. Sergio Elejar MENDOZA.No. 82849.Argued: Nov. 2, 1983.Decided: Jan. 10, 1984)violates res judicata and 14th
amendment collateral -4- estoppel. It is cruel and illegal to deny my motion for court
appointed counsel since I attach medical documents I am invalid because of injuries
inflicted by crimes detailed.
-6-

STATEMENT OF THE CASJ
-1) Errors in district courtAmerican bom citizen,while studying in Pern university I
was and am submitted to a terrorist conspiration and acts of torture on behalf of the
Peru government and many peruvian citizens acting often as agents,and having
exhausted domestic remedies in Peru,I filed pro se a civil action 133pp long
including a short and plain statement of jurisdiction,another of claims,another
showing I am entitled to relief,requesting compensation and punitive damages,that
was dismissed without prejudice in DC district court wrongfully argumenting :
-l)the complaint was to long(133pp. that are necessary to ask discovery of
years of crimes by the government organization because of denial of
investigation by the FBI)thus incompliant with art.8 FRCP,despite this article
only sets limits to the statements ofjurisdiction,claims,relief;
-2)complaint was”for sweeping misconducf’by the Peru government,banalizing
it was for terrorism torture etc,to conclude it had no merits.
-2) Then the USCA for DC circuit refused to take into account my brief and
reaffirmed the wrongs of district court,denying also court appointed counsel
“because case had no merits’Mespite res judicata of Chief judge C.McMahon June
13 2018 ruling it had merits and transferred to DC
REASONS FOR GRANTING THE WRIT
1

Chief Judge Mahon NYSD already admitted my case upon merits as such

(NYSD 18 1740)and transferred it so there is little sense the lower courts violate res
judicata to dismiss it again as well as a court appointed counsel aledging I didn’t
prove my case had merits.

-7-

2.The lower courts keep erring aledging I didn’t comply with FRCP 8a)by not
including a short and plain statement of the claims,despite I had
3.Lower courts keep asking I shorten my complaint despite I mentionned I am also
suing FBI and Department of state for depriving my of my civil rights refusing to
investigate crimes and put Peru on list of terrorist states or condemn them for
torture,thus,I

need

to

make

the

judge

discover

enclosing

my

own

investigation,which requires extensive exhibits and facts,to prove claim can be heard
for torture and terrorism exception to FSIA.
4.Appeals court should have granted my request for leave to file an amended
complaint instead of letting the district court dismiss,since it is only about formality.
CONCLUSION
I pray this Court for relief to accept my original complaint ,if not,allow me leave
to file an amended complaint with help of court appointed counsel.

Helga Suarez Clark

May 5 2021
-8-

